                             ..-..
                                     ..
     .   .   .   .   .   .                .   .                                    .....     . . . . . . .   -

                                                  CLOSEOUT FOR M93010002                                         .   I

     This case was brought to the OIG by -                                 i   Y                       a



                                                                               .     In his review,
complainant) alleged that the subject proposed to do work that
already had been done and published in articles that the subject
cited in his proposal.
     OIG wrote to the subject explaining that it had been alleged
that he proposed to do work that essentially repeated the work of
another researcher cited in his proposal and knowingly or
recklessly misrepresented his proposed work as original. In his
reply, the subject stated that his work tlrepresent[sl a new
approach to the problemt1where the parameters have Ifclear and
explicit physical meaningt1and the problem becomes much simpler.
He claimed that the complainant's work begins with different
assumptions and introduces needless complications.
     OIG asked an expert from another government agency to evaluate
the subject's reply. We requested his judgment as to whether the
subject's work actually was original, or whether it was
misrepresented as such in his proposal. We also asked, if he
believed that the work wasin= original, that he assess whether it
was possible that the subject was unable to recognize it as such.
The expert concluded that the proposed work was original, though
"closely relatedttto the work it was alleged to duplicate. He
stated that the equations involved, though "formally identical to
those derived byt1the complainant, were "not derived under the same
assumptions or conditions."
     OIG notified the subject that we had determined that the
allegation lacked substance and that we were closing the case
without a finding of misconduct. We also informed the subject that
explanations of how his proposed work relates to research already
in the literature and clarifications of how his work differs from
closely related research on the same topic might help prevent
problems such as this from arising in the future.
     This case is closed and no further action will be taken.




Staff Scientist, Oversight

                                                       page 1 of 2
    Concurrence :




    Donald E. BWizelli
    Deputy Assistant Inspector General,
    Oversight




    James J. ~wolenik
    Assistant Inspector General for Oversight




/   L. Nancy Birnbaum
    Assistant Counsel to the Inspector General

    cc: Signatories
        Inspector General




                               page 2 of 2
